Prepared by PrintingHouse Press, Ltd. 10 East 39th Street, New York, NY 10016
Tel No: (212) 719-0990 Fax No: (212) 398-9253
STATE OF NEW YORK

)

COUNTY OF NEW YORK

) SS

Dave Jackson, Being duly sworn, deposes and says that deponent is not party to the action, and is over 18
years of age.
That on 4/1/2021 deponent caused to be served 3 copy(s) of the within
Petition for Writ of Certiorari
upon the attorneys at the address below, and by the following method:
By Overnight Delivery and
Email
James E. Johnson
Corporation Counsel
of the City of New York
Attorneys for Respondents
100 Church Street
New York, New York 10007
(212) 356-1000
ServiceECF@law.nyc.gov

Sworn to me this
Thursday, April 1, 2021
Antoine Victoria Robertson Coston
Notary Public, State of New York
No.01RO6286515
Qualified in Nassau County
Commission Expires on 7/29/2021

Case Name: Andrew J. Capul v. City of New York (2)
Docket/Case No:
Index:

